WAIVER

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No 19-1371

ROGER DEAN WALDNER (Petitioner) vy. BRADLEY R. HARTKE et. al. (Respondents)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check the appropriate boxes:
x Please enter my appearance as Counsel of Record for all respondents.
X Tama member of the Bar of the Supreme Court of the United States.
The Record:

The 8th Circuit did not require Respondents to file a memorandum on Petitioner's direct appeal, so there
is none. The record is found in the filings in the two District Court actions. The District Court Judges also
did not require Respondent to enter memoranda in opposition to the relevant Petitioners motions, so there
are none. While attaching several documents, Petitioner fails to identify or attach the Respondent's earlier
memorandum dealing with the issue he now advances. See Case 18-cv-00976-NEB-BRT Document 33,

“Plaintiffs Memorandum on Subject pee
Signature Cady LL *
=
Date: ure 258 : LOVSd

(Type or print) Name Mr. David Wyvil Larson

Firm Martin & Squires P.A.

Address 332 Minnesota Street, Suite 2750

City & State Zip St. Paul, Minnesota 55101

Phone 651-767-3746 Cell 612-799 2162
Email dwlarson@martinsquires.com

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF PRO
SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS FORM. NO
ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

ce: Roger Dean Waldner,
PO Box 485
Redfield, SD 57469
